CERTIFICATE OF SERVICE
Case Name:

Valladares v. Koenig

No.

SACV 19-00487-JLS (JDE)

I hereby certify that on July 27, 2021, I electronically filed the following documents with the
Clerk of the Court by using the CM/ECF system:
WAIVER OF RESPONSE OF CERTIORARI PETITION
I certify that all participants in the case are registered CM/ECF users and that service will be
accomplished by the CM/ECF system.
I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on July 27,
2021, at San Diego, California.

D. Wallace
Declarant
SD2019800187
82971181.docx

Signature

